        U.S. Department of Energy
        Office of Inspector General
        Office of Audits and Inspections




Examination Report
Community Action Partnership of
Orange County − Weatherization
Assistance Program Funds Provided
by the American Recovery and
Reinvestment Act of 2009




OAS-RA-13-03                     October 2012
                                 Department of Energy
                                    Washington, DC 20585
                                        October 17, 2012


MEMORANDUM FOR THE ASSISTANT SECRETARY, ENERGY EFFICIENCY AND
               RENEWABLE ENERGY


FROM:                    Rickey R. Hass
                         Deputy Inspector General
                            for Audit Services
                         Office of Inspector General

SUBJECT:                 INFORMATION: Examination Report on "Community Action
                         Partnership of Orange County – Weatherization Assistance Program
                         Funds Provided by the American Recovery and Reinvestment Act of
                         2009"

BACKGROUND

The attached report presents the results of an examination of the Community Action Partnership
of Orange County's (Agency) implementation of the American Recovery and Reinvestment Act
of 2009 (Recovery Act) Weatherization Assistance Program (Weatherization Program). The
Office of Inspector General (OIG) contracted with an independent certified public accounting
firm, Lopez and Company, LLP, to express an opinion on the Agency's compliance with Federal
and State laws, regulations and program guidelines applicable to the Weatherization Program.
The Agency was a sub-recipient of the Department of Energy's (Department) Recovery Act
Weatherization Program funding for the State of California.

The Recovery Act was enacted to promote economic prosperity through job creation and
encourage investment in the Nation's energy future. As part of the Recovery Act, the
Weatherization Program received $5 billion to reduce energy consumption for low-income
households through energy efficient upgrades. The State of California received $186 million in
Recovery Act Weatherization Program funding, of which $7.3 million was allocated to the
Agency to weatherize 2,342 homes. The State of California Department of Community Services
and Development was responsible for administering Weatherization Program grants, including
funds provided to the Agency.

OBSERVATIONS AND CONCLUSIONS

Lopez and Company, LLP, expressed the opinion that except for the weaknesses described in its
report, the Agency complied in all material respects with the requirements and guidelines relative
to the Weatherization Program for the period of July 1, 2009 through June 30, 2011.
                                                 2

However, the examination found that the Agency:

      •   Failed to evaluate the quality of work performed on 7 of 60 homes (12 percent)
          reviewed. Federal guidelines state that no dwelling can be reported as complete until
          all weatherization materials have been installed and a final inspection has been
          performed. However, the Agency and its contractors were paid $24,900 for the work
          performed on these seven homes even though the quality and completeness of work
          was not verified and approved;

      •   Required re-work on a significant percentage of homes weatherized by its contractors
          prior to completion. Specifically, 12 of 35 homes (34 percent) reviewed had final
          inspections that identified necessary re-work. Additionally, the same contractor
          performed work on 18 of the 35 homes reviewed and of those, 9 (50 percent) required re-
          work; and,

      •   Procured weatherization materials and contractor services without evidence that a cost
          or price analysis was performed. As a result, Lopez and Company, LLP, questioned
          $190,000 in costs associated with the procurements identified in its review.

The report makes recommendations for the Agency to improve the administration of its
Weatherization Program. The Agency provided comments that expressed agreement with the
recommendations and provided planned and ongoing actions to address the issues identified.
While these comments and planned corrective actions are responsive to the recommendations,
the Department needs to ensure the planned actions are taken.

RECOMMENDATIONS

We recommend the Assistant Secretary for Energy Efficiency and Renewable Energy:

     1.   Require the State of California to improve administration of the Weatherization
          Program funds by ensuring the Agency implements the recommendations outlined in
          the report;

     2.   Direct the State of California to determine whether the Agency was reimbursed for
          other homes not subject to a final inspection, and take appropriate action; and,

     3.   Determine whether program guidance should be revised to address situations where
          agencies are unable to perform final inspections.

We also recommend the Contracting Officer for the State of California Weatherization
Assistance Grant:

     4.   Resolve identified questioned costs.
                                                3

MANAGEMENT COMMENTS AND AUDITOR RESPONSE

The Department concurred with the recommendations outlined in this memorandum. The
Department stated that it would work with the State to ensure the Agency implemented the
examination report's recommendations, to determine whether the Agency made reimbursements
on other homes not subject to final inspection, and to resolve questioned costs. Additionally, the
Department stated it would review current program policy to determine whether revised
guidance was necessary to address situations where sub-grantees were unable to perform final
inspections. The Department's comments are included in their entirety in Attachment 2.

The State of California concurred with recommendations to the Agency made by Lopez and
Company, LLP, in the examination report and stated that it would ensure corrective actions were
completed timely. The State's comments are included in their entirety in Attachment 3.

The comments provided by the Department and the State were responsive to the
recommendations.

EXAMINATION-LEVEL ATTESTATION

Lopez and Company, LLP, conducted its examination in accordance with attestation standards
established by the American Institute of Certified Public Accountants as well as those additional
standards contained in Government Auditing Standards, issued by the Comptroller General of the
United States. The examination-level procedures included gaining an understanding of the
Agency's policies and procedures and reviewing applicable Weatherization Program
documentation. The procedures also included an analysis of inspection results, records of
corrective actions, and re-inspections of completed homes/units to ensure any failures were
properly corrected. Finally, an analysis of associated cost data was conducted to test the
appropriateness of payments.

The OIG monitored the progress of the examination and reviewed the report and related
documentation. Our review disclosed no instances where Lopez and Company, LLP, did not
comply, in all material respects, with the attestation requirements. Lopez and Company, LLP, is
responsible for the attached report dated April 30, 2012, and the conclusions expressed in the
report.

Attachment

cc: Deputy Secretary
    Acting Under Secretary of Energy
    Chief of Staff
                                                                           Attachment 1




                           EXAMINATION REPORT ON COMPLIANCE

                                                                   OF

                          Recovery Act Weatherization Assistance Program

                          Community Action Partnership of Orange County

                                                              ____

                                                  PERFORMED FOR

                                    U.S. DEPARTMENT OF ENERGY
                                   OFFICE OF INSPECTOR GENERAL



                                                         Prepared by

                                             Lopez and Company, LLP

                                           Report Date
                                                  Date: April 30, 2012




                                CONTRACT NUMBER: DE
                                                 DE-IG0000017

                                    WORK ORDER NUMBER: 201
                                                       2011-01


14728 Pipeline Avenue▪▪ Suite E ▪ Chino Hills ▪ California 91709
Phone: 626-583-1116 ▪ Fax: 626-577-8439 ▪ www.lopezllp.com
                                                                                                 Attachment 1 (continued)




                                                     Table of Contents



INDEPENDENT ACCOUNTANT'S REPORT ......................................................................... 1

Section I Description of the Community Action Partnership of Orange County
          Weatherization Assistance Program .......................................................................... 2

Section II Classification of Findings........................................................................................... 3

Section III Summary of Findings ................................................................................................ 4

Section IV Schedule of Findings .................................................................................................. 5

Section V Complete Management Response ............................................................................ 10




                                                                                             Lopez and Company, LLP
                                                                             Attachment 1 (continued)




                   INDEPENDENT ACCOUNTANT
                               ACCOUNTANT'S REPORT

To the Inspector General,
Department of Energy:

We have examined the Community Action Partnership of Orange County'ss (Agency) compliance
with Federal and State laws, regulations, and program guidelines applicable to the Recovery Act
Weatherization Assistance Program (Weatherization Program) for the period of July 1, 2009 through
June 30, 2011. The Agency is responsible for operating the Weatherization Program in compliance
with these laws, regulations, and program guidelines. Our responsibility is to express an opinion
based on our examination.

Our examination was conducted in accordance with attestation standards established by the
American Institute of Certified Public Accountants and the U.S. Government Accountability Office;
and, accordingly, included examining, on a test basis, evidence supporting management's
                                                                           management compliance
with relevantt Weatherization Program Federal and State laws, regulations, and program guidelines,
and performing such other procedures as we considered necessary in the circumstances. We believe
that our examination provides a reasonable basis for our opinion. Our examination
                                                                         xamination does not provide
a legal determination on the Agency's compliance with specified requirements.

Because of inherent limitations in any internal control structure or financial management system,
noncompliance due to error or fraud may occur and nnot     ot be detected. Also, projections of any
evaluation of compliance to future periods are subject to the risk that the internal control structure or
financial management system may become inadequate because of changes in conditions or that the
degree of compliance
              pliance with the policies and procedures may deteriorate.

In our opinion, except for the weaknesses described in Section IV of this report, the Agency
complied in all material respects, with the aforementioned requirements and guidelines relative to the
Weatherization
  eatherization Program for the period of our review from July 1, 2009 through June 30, 2011.




Lopez and Company, LLP
Chino Hills, California
April 30, 2012




                                               Page 1                       Lopez and Company, LLP
                                                                      Attachment 1 (continued)


         Section I Description of the Community Action Partnership of
              Orange County Weatherization Assistance Program
The Community Action Partnership of Orange County (Agency) is a non-profit Community
Action Agency committed to eliminating poverty and promoting self-sufficiency by providing
various programs and services for individuals and families in Orange County within the State of
California. The Agency receives its grant support primarily from the State of California
Department of Community Services and Development (State) for the purpose of participating in
the Weatherization Assistance Program (Weatherization Program) with funds appropriated under
the authority of the American Recovery and Reinvestment Act of 2009 (Recovery Act).

Under the Recovery Act, the State of California received a grant of approximately $186 million
from the U.S. Department of Energy (Department) for the Weatherization Program. The State
initially allocated about $6.1 million of its grant to the Agency to weatherize 2,221 homes.
These funds were to be expended over a 3-year period ending March 31, 2012. In June 2011, the
State increased the amount of the Agency's allocation to $7.3 million to weatherize 2,342 homes.
Under the Weatherization Program, low-income homeowners and renters received assistance to
increase the energy efficiency of their homes by sealing duct systems and by installing
insulation, cooling and heating systems, and energy efficient windows and doors.




                                  Page 2                          Lopez and Company, LLP
                                                                          Attachment 1 (continued)


                          Section II Classification of Findings


Material Weakness
For purposes of this engagement, a material weakness is a significant deficiency or combination
of significant deficiencies that results in more than a remote likelihood that a material
misstatement of the subject matter will not be prevented or detected.

Significant Deficiency
For purposes of this engagement, a significant deficiency is a deficiency in internal control, or
combination of deficiencies, that adversely affects the Agency's ability to initiate, authorize,
record, process, or report data reliably in accordance with the applicable criteria or framework,
such that there is more than a remote likelihood that a misstatement of the subject matter that is
more than inconsequential will not be prevented or detected.

Advisory Comment
For purposes of this engagement, an advisory comment represents a control deficiency that is not
significant enough to adversely affect the Agency's ability to record, process, summarize, and
report data reliably.




                                   Page 3                            Lopez and Company, LLP
                                                                   Attachment 1 (continued)


                            Section III Summary of Findings



Area/Finding


      Material Weaknesses
Home Inspections - Questioned Costs
      IV.1     Failure to Perform Final Inspections


Quality of Work
      IV.2     Deficiencies in Quality of Work


Procurement - Questioned Costs
      IV.3     Lack of Procurement Analysis and Documentation




                                  Page 4                        Lopez and Company, LLP
                                                                          Attachment 1 (continued)


                             Section IV Schedule of Findings
HOME INSPECTIONS - QUESTIONED COSTS

IV.1     Failure to Perform Final Inspections (Material Weakness)

Condition
Final inspections were not performed on 7 of the 60 homes (12 percent) in our review of client
files and cash reimbursements. Weatherization inspections are to be conducted to assess the
quality and completeness of weatherization services and compliance with Federal and State
guidelines. Federal guidelines state that no dwelling can be reported as complete until all
weatherization materials have been installed and a final inspection has been performed.
However, the Agency and its contractors were paid $24,900 for the work performed on these
seven homes even though the quality and completeness of work was not verified and approved.

The Agency's stated but undocumented policy was to conduct up to four follow-up phone calls in
an attempt to schedule the home inspection. For the seven homes not inspected, the Agency had
documented all unsuccessful contacts in the "Client Call Tracking Sheet." For each, after the last
call attempt was made, no further action was taken to conduct the inspection, and the project was
considered complete.

In addition, the Agency could not provide a complete list of all homes that did not receive a final
inspection beyond the seven we identified in our review. As a result, we were unable to
determine the amount of Recovery Act funds spent on weatherization work that was not
inspected for quality and completeness.

Cause
The Agency lacked documented policies or procedures regarding its follow-up efforts to perform
final inspections. While attempts to schedule the final inspections were recorded on a project-
by-project basis, there was no further effort to contact the occupant, such as by mail or in person,
or to aggregate the unsuccessful attempts in order to calculate the percentage of all homes not
inspected. Further, the Department did not provide guidance regarding actions to take if a final
inspection could not be performed.

Effect
The lack of additional follow-up efforts resulted in a high rate of final inspections not being
performed. As a result, there is a risk that weatherization work may be incomplete or poor
workmanship may have occurred. We therefore question $24,900 in costs reimbursed for the
weatherization of the seven homes.

Recommendation
We recommend the Agency:




                                   Page 5                            Lopez and Company, LLP
                                                                         Attachment 1 (continued)


                       Section IV Schedule of Findings (Cont.)
1.1    Establish a comprehensive process providing for final inspections on all homes. This
       would include documented and standardized follow-up efforts and communication;

1.2    Request reimbursement for weatherization costs only when final inspections are
       completed;

1.3    Seek guidance from the State and/or Department regarding actions to take when final
       inspections cannot be performed; and,

1.4    Determine homes not final inspected and take corrective action.

Management Response

Management agreed with the finding and recommendations. The Agency indicated that it
followed a procedure from the State's weatherization contract when attempting to schedule post
inspections. This procedure required that a minimum of two attempts to contact the homeowner
in writing or one missed appointment would constitute a reasonable effort to schedule the
inspection by the Agency. However, as indicated above, we did not see evidence that the
Agency followed this procedure.

In addition, the Agency is working with the State to ensure contract and program compliance and
will revisit all previously weatherized units that have not had final inspections or for which
documentation is missing.




                                  Page 6                          Lopez and Company, LLP
                                                                         Attachment 1 (continued)

                         Section IV Schedule of Findings (Cont.)
QUALITY OF WORK

IV.2     Deficiencies in Quality of Work (Material Weakness)

Condition
As noted previously (Finding IV.1), in some cases the Agency did not evaluate the quality of
weatherization work performed. However, even when final inspections did occur, Agency
inspectors often found that homes weatherized by the Agency's contractors required rework. For
example, we found that 12 of 35 homes (34 percent) included in our review of weatherization
work had final inspections that identified the need for follow-up work. Specifically, we
reviewed 30 weatherization client files and found that in 11 cases, the final inspection had
identified the need for follow-up work. We also accompanied Agency inspectors on five final
home inspections that resulted in one home requiring re-work. Re-work issues identified in files
included sealing ductwork; adding attic and basement insulation; and wrapping of pipes for
water heaters. Federal and State regulations require agencies to ensure the quality of
weatherization work performed.

We found that the majority of follow-up work was attributable to one contractor. Specifically,
the same contractor performed work on 18 of the 35 homes reviewed and of those, 9, or 50
percent required re-work.

Cause
The Agency did not have a tracking mechanism to compile re-work statistics or analyze
contractor and Agency inspector performance to ensure accountability and that quality of work
issues were identified in a timely manner.

Effect
Substandard work can pose health and safety risks to occupants, hinder production, and increase
costs. If the Agency does not take timely action to remedy poor crew and contractor
performance or identify recurring quality of work issues, quality of work will not improve and
the agency will continue to consume resources that could otherwise be devoted to the
weatherization of additional homes.

Recommendations
We recommend the Agency:
2.1      Re-examine its current process for monitoring and tracking weatherization project
         progress; including trends in crew and contractor performance, the level of additional
         work needed, and the number of inspections required for each weatherized home; and,
2.2      Perform an assessment of the quality of work performed by the contractor and determine
         if the contractor is performing at an acceptable level. If appropriate, a course of
         corrective action should be developed, implemented and monitored if the contractor is to
         continue providing services to the Agency.
                                    Page 7                          Lopez and Company, LLP
                                                                      Attachment 1 (continued)

Management Response
Management agreed with the finding and recommendations. The Agency will review and revise
procedures, where appropriate, related to work quality for contractor performance and standards
for employee performance.




                                  Page 8                          Lopez and Company, LLP
                                                                          Attachment 1 (continued)

                         Section IV Schedule of Findings (Cont.)
PROCUREMENT - QUESTIONED COSTS

IV.3     Lack of Procurement Analysis and Documentation (Material Weakness)

Condition
The Agency, in certain circumstances, did not comply with Federal procurement regulations.
According to Federal regulations, some form of cost or price analysis shall be performed and
documented in connection with every procurement action to ensure weatherization costs are
reasonable and supportable. We found that for 16 of the 17 invoices in our sample, the Agency
could not provide evidence that a cost or price analysis was performed. The 16 invoices
consisted of 14 materials and 2 service procurements totaling more than $190,000. All items and
services purchased on the invoices reviewed cost less than $5,000 each.

Cause
The Agency was not aware of the Federal requirement to document a supportable cost or price
analysis for weatherization procurements less than $5,000.

Effect
The lack of competitive bidding or a cost or price analysis to support these procurements did not
ensure that weatherization materials and services costs were reasonable. We therefore question
$179,000 charged for the 14 materials procurements, and approximately $11,000 for the two
service procurements charged to the Weatherization Program.

Recommendation
We recommend the Agency:
3.1      Revise its polices and implement procedures to provide for cost or price analyses as
         required by Federal regulations to ensure that materials and service costs are reasonable
         and supportable.

Management Response
Management agreed with the finding and recommendation. The Agency is consulting with the
State to ensure contract and program compliance. The Agency will also implement draft written
procurement procedures to include formal documentation of price analyses of all agency
purchases. In addition, the Agency plans to review and provide support documentation for
questioned invoices in order to demonstrate that the costs were reasonable and competitive.
In addition, the Agency clarified that it was aware of the requirement to perform documented
competitive bids on equipment costing in excess of $5,000; however, it was not aware of a
similar requirement for weatherization procurements under $5,000. As a result, we revised the
finding accordingly.




                                    Page 9                           Lopez and Company, LLP
                                Attachment 1 (continued)

Section V Complete Management Response




     Page 10                 Lopez and Company, LLP
             Attachment 1 (continued)




Page 11   Lopez and Company, LLP
                      Attachment 2


DEPARTMENT COMMENTS
Attachment 2 (continued)
                               Attachment 3



STATE OF CALIFORNIA COMMENTS
Attachment 3 (continued)
                                                                  IG Report No. OAS-RA-13-03

                               CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers' requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

     1.   What additional background information about the selection, scheduling, scope, or
          procedures of the audit or inspection would have been helpful to the reader in
          understanding this report?

     2.   What additional information related to findings and recommendations could have been
          included in the report to assist management in implementing corrective actions?

     3.   What format, stylistic, or organizational changes might have made this report's overall
          message more clear to the reader?

     4.   What additional actions could the Office of Inspector General have taken on the issues
          discussed in this report which would have been helpful?

     5.   Please include your name and telephone number so that we may contact you should
          we have any questions about your comments.


Name                                          Date

Telephone                                     Organization

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact our office at (202) 253-2162.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                  U.S. Department of Energy Office of Inspector General Home Page
                                         http://energy.gov/ig

      Your comments would be appreciated and can be provided on the Customer Response Form.
